Audit of USAID's Staff Training and Development
Activities
Audit Report Number 9-000-02-005-P
July 11, 2002




                  Washington, D.C.
U.S. AGENCY FOR
 INTERNATIONAL
  DEVELOPMENT

July 11, 2002


MEMORANDUM
FOR:              M/HR/OD, Rose Marie Depp

FROM:             IG/A/PA Director, Dianne L. Rawl /s/

SUBJECT:          Audit of USAID’s Staff Training and Development
                  Activities (Report No. 9-000-02-005-P)


This memorandum is our final report on the subject audit. In finalizing
this report, we considered your comments on our draft report and have
included this response as Appendix II.

In your response to our draft report, you concurred with each of the three
procedural recommendations. Therefore, we consider that a
management decision has been reached on each of the three
recommendations. Please coordinate final action for each
recommendation with M/MPI.

I appreciate the cooperation and courtesy extended to my staff during the
audit.




                                                                       1
Summary      The importance of training and development programs to the success of an
             organization has been addressed in many recent Federal reports, studies, and
of Results   publications. Staff development and training are of particular concern to
             many federal agencies such as USAID because of the demographics of its
             workforce with approximately 32 percent of its civil service employees and
             60 percent of its foreign service employees already eligible or eligible for
             retirement within five years. (See page 3.)

             Within USAID, staff training and development are the responsibility of the
             Management Bureau's Office of Human Resources/Learning Support
             Division (M/HR/LS). M/HR/LS-sponsored training programs are available
             throughout the year, both in Washington and overseas. Additional training is
             sponsored by individual overseas missions but information on these courses
             and their cost is not tracked by M/HR/LS. (See page 3.)

             In general, USAID has established and implemented measures to train and
             develop its staff to meet its needs. A skills matrix for the foreign service
             has been developed that lists the six core skills and specifies the
             performance levels depending on grade levels. Core competencies for
             civil service employees are based on competencies established by the
             Office of Personnel Management (OPM). Intensifying reform-related
             training—including a leadership and programs operation program and a
             new competency-based technical program—has been identified as one of
             four Agency-wide priority areas to achieve this vision of evolving into a
             model international development agency. (See page 4.)

             USAID does not have a system for accurately determining what training
             its employees have already received making it difficult to identify training
             gaps for individual employees or for USAID overall. Currently there is no
             database of training records for U.S. direct hire employees and there has
             never been a training database for personal service contractors (PSCs) or
             foreign service nationals (FSNs). Records of completed training in
             courses sponsored by overseas missions is also unavailable at M/HR/LS.
             We have recommended establishment of a training database to include
             training data for direct-hires, PSCs and FSNs, and also to include training
             sponsored by the overseas missions. (See pages 5 and 6.)

             There are no formal procedures to collect information on training courses
             procured by overseas missions to provide a "clearinghouse" of information
             on these activities to preclude multiple missions individually buying
             identical or similar training courses instead of obtaining a savings by
             collectively buying the development of a course. We have recommended
             that M/HR/LS develop procedures to collect this information and
             disseminate it to the missions. (See pages 6 and 7.)




                                                                                    2
Background        The importance of training and development programs to the success of an
                  organization has been addressed in many recent Federal reports, studies, and
                  publications. Establishing appropriate practices for hiring, orienting, training,
                  evaluating, counseling, and promoting are critical factors of any Federal
                  agency's control environment.

                  Staff development and training are of particular concern to USAID because
                  of the demographics of its workforce. USAID's Fiscal Year 2000
                  Performance Report notes that approximately 32 percent of USAID's civil
                  service employees and almost 60 percent of its foreign service employees are
                  eligible, or will be eligible, to retire within the next five years. In 1997, a
                  report by the USAID-initiated Workforce Planning Task Force found that
                  training in USAID was inadequately funded and that "The lack of staff
                  development, in the view of all interviewed, is leading to a dysfunctional
                  USAID." The Task Force cited several deficiencies in the area of staff
                  development and concluded that these vulnerabilities seriously affected
                  USAID's ability to deliver results.

                  Within USAID, staff training and development are the responsibility of the
                  Management Bureau's Office of Human Resources/Learning Support
                  Division, or M/HR/LS. The mission of the division is "to provide all
                  employees of USAID—as an organization, a team, or individual—with the
                  support needed to obtain the expertise (skills, knowledge, and attitudes) to
                  perform their jobs and prepare for future job challenges." M/HR/LS-
                  sponsored training programs are available throughout the year, both in
                  Washington and overseas. Additional training is sponsored by individual
                  overseas missions but information on these courses and their cost is not
                  tracked by M/HR/LS. During fiscal years 1999 and 2000, M/HR/LS reports
                  having a training budget of $4,478,500 and $5,808,500, respectively. These
                  amounts represent one percent of the total USAID operating expenditures for
                  each year and include only training funding spent by M/HR/LS.



Audit Objective   The Office of Inspector General's Performance Audits Division in
                  Washington, D.C. performed this audit as part of the OIG's Annual Audit
                  Plan. It was designed to answer the following audit objective:

                  Did USAID establish and implement measures to train and develop its
                  staff to meet the needs of USAID?




                                                                                             3
Audit Findings   Did USAID establish and implement measures to train and develop its
                 staff to meet the needs of USAID?

                 In general, USAID has established and implemented measures to train and
                 develop its staff to meet its needs. The USAID Learning Support Division
                 (M/HR/LS) has established a diverse curriculum for USAID employee in-
                 house training as contained in its course catalog with course descriptions and
                 a monthly schedule of classes. However, M/HR/LS needs to identify and
                 implement a database for recording the training each USAID employee has
                 already completed to allow an accurate assessment of USAID training gaps
                 in the future.

                 USAID's Workforce Planning Task Force, created in 1997, included a
                 review of USAID's overall training needs and priorities. As a result of the
                 Task Force's findings and further discussions, areas where organizational
                 development training is currently deemed to be most needed include: (1)
                 executive and senior leadership, (2) acquisition and assistance, (3)
                 supervision, (4) managing for results, and (5) new entry training orientation.
                 USAID's training program focuses on these priority areas with
                 approximately 60 percent of the training budget while much of the remaining
                 training budget is fixed and used for required items such as language and
                 computer training.

                 The Office of Human Resources has developed a skills matrix for the foreign
                 service that lists the six core skills (quality of work, leadership, resource
                 management, staff development, professionalism, and
                 teamwork/interpersonal skills) and specifies the performance level required
                 in each of the sub-skills depending on the employees' grade level. Core
                 competencies for civil service employees have also been identified based on
                 competencies established by the Office of Personnel Management (OPM).

                 USAID has established a vision "to evolve into a model international
                 development agency with the operational flexibility, technical skills, and
                 institutional strength to meet twenty-first century global challenges."
                 Intensifying reform-related training is one of four Agency-wide priority
                 areas that has been identified to achieve this vision. This training includes a
                 leadership and program operations program and a new competency-based
                 technical program.

                 Overseas USAID missions, as well as Washington-based bureaus,
                 supplement USAID's centrally-funded training budget by expending an
                 unspecified amount of resources in program and operating funds to meet
                 their training needs. USAID's accounting and budgeting systems do not
                 adequately allow for identification of these amounts making it impossible to


                                                                                            4
determine how much USAID is actually spending on the training function.
Accordingly, we were unable to determine whether USAID's training
expenditures are comparable with other similar Federal agencies.

In summary, we believe USAID is generally making satisfactory progress in
its efforts to train and develop its staff to meet its needs. However, as
discussed below, USAID does not have a system for accurately determining
what training its employees have already received making it difficult to
identify training gaps for individual employees or for USAID overall.

No Database of Completed Training

In order for USAID to have an effective training program, it must have an
effective system for determining what training its employees have already
completed. Within USAID, however, there is no one complete and
accurate set of training records for USAID employees. Training records
kept by M/HR/LS for U.S. direct-hire employees are not maintained or
organized to allow identification of the training shortfalls of individual
employees or the training needs of USAID overall. In addition, training
performed overseas in courses sponsored by individual overseas USAID
missions are rarely included in M/HR/LS training records and no records
are maintained in Washington concerning training provided to foreign
service nationals (FSNs) or personal services contractors (PSCs).

Until October 2000, USAID used the Revised Automated Manpower and
Personnel System (RAMPS) as its payroll system and personnel database,
although M/HR/LS officials state that they discontinued inputting data
into RAMPS even before that date in anticipation of its replacement.
RAMPS included information on completed training courses, but only for
U.S. direct-hire employees; FSNs and PSCs were not included. An official
in the Office of Human Resources, Information Management Branch
(M/HR/PPIM/IM) stated that the RAMPS database for U.S. direct-hires is
not entirely accurate or complete even for the period in which it was
operative. During calendar year 2000, USAID queried all direct-hire
employees about the accuracy of their Employee Data Records in RAMPS
and over 300 employees responded that their training records were not
complete. Missing training entries included training related to fiscal years
1998 and 1999, as well as 2000.

USAID outsourced its automated personnel and payroll functions to the
U.S. Department of Agriculture's National Finance Center (NFC) in
October 2000. NFC's database systems included one for training
records—TRAIN. M/HR/LS officials opted not to use TRAIN because,
like RAMPS, it could not capture training information on non-U.S. direct-
hire employees and M/HR/LS officials hoped to purchase and implement a
new database system that could include training information on all USAID



                                                                       5
employees. According to M/HR/LS officials, USAID's increased reliance
on PSCs and FSNs to conduct USAID's activities along with increases in
training provided to these individuals make it imperative to have a
comprehensive training database system for all of USAID. However, no
training database system has ever been purchased or implemented.

In the interim period since discontinuance of the use of RAMPS, and in
the absence of any written procedures to provide guidelines on
maintaining training records, M/HR/LS has employed a variety of means
to maintain USAID's training records. Hard copy documentation for key
training courses—such as Senior Leadership Training and courses
required for promotions—are reportedly placed in individual hardcopy
personnel files. Documentation for other training that is not considered
key to promotion is kept in various places within M/HR/LS or by Pal
Tech, an outside consulting firm used by USAID. This documentation is
not filed in individual personnel files. M/HR/LS managers also report that
their staff tried at different times to track post-RAMPS training
information in two off-the-shelf software programs—Access and then in
Excel—but found both programs to be difficult for maintaining a training
database and discontinued their use.

Another problem concerning the maintenance of USAID's training records
is the absence of information or documentation on training courses
initiated or sponsored by individual overseas USAID missions. Cost
information or class rosters for this training—funded through the missions'
training budgets or through program funds—have generally not been sent
to M/HR/LS, although it is possible the missions maintain a record of
what courses they held, how much they cost, and who attended. Much of
this training may be mission specific or not considered significant to an
individual employee's career development but it does represent a USAID
investment in the employees' skills development and at least some portion
of it is essential or "trackable" training that should be included in the
employees' training records. Also, without the overseas training cost
information there is no means of determining how much USAID is really
expending on training and developing its staff, making it difficult to gauge
whether USAID's budget for training is adequate or seriously deficient and
making it impossible to compare USAID's per capita training expenditures
with other Federal agencies.

The absence of information on training courses initiated by overseas
missions can also result in unnecessary training expenditures. At least one
USAID study has cited the problem of multiple missions individually
buying identical or similar training courses (courses not offered by
M/HR/LS) instead of obtaining a savings to USAID by collectively buying
the development of the training course. No formal procedures have been
implemented to address this problem. An M/HR/LS official notes they



                                                                       6
collect information on new courses being procured and developed
overseas at various conferences of USAID executive officers or similar
venues, as M/HR/LS seeks to keep its course offerings up-to-date with the
training that overseas missions are seeking. But there are no formal
procedures to solicit this information and no system for disseminating or
offering this information to overseas missions that may be planning to
purchase a training course, perhaps one already purchased by another
mission.

M/HR/LS officials recognize the importance of accurate training records
as an integral part of an effective USAID training program and a necessity
in order to accurately assess the amount and type of training needed by
USAID's workforce. However, M/HR/LS officials report that their current
budget does not provide funding for a new database system or the
resources to maintain the database and their efforts have focused on
providing the training itself to USAID personnel. The longer the delay in
implementing a training database—there is currently no target date or plan
for implementing one—the more difficult it will be for USAID to
reconstruct and reestablish an accurate record of completed training and
for USAID to be able to effectively assess its training requirements. The
problems of incorporating information on overseas training into the
overall USAID database and disseminating information on which courses
have been developed and used by overseas missions will continue to exist
without formal procedures or a system to obtain this information from the
missions. Again, M/HR/LS reports it does not have the resources to
collect information on training courses sponsored by overseas missions.

       Recommendation No. 1: We recommend that the Learning
       Support Division implement a database of training records for
       all USAID employees—U.S. direct hires, foreign service
       nationals, and personal services contractors—to include a
       reconciliation of prior training database records and the
       various manual records to develop an accurate list of
       completed employee training for entry into the new database.

       Recommendation No. 2: We recommend that the Learning
       Support Division develop procedures for collecting information
       on completed employee training at Mission-sponsored training
       courses conducted overseas and entering this information into
       the new training database system.




                                                                     7
                 Recommendation No. 3: We recommend that the Learning
                 Support Division develop procedures for collecting and
                 summarizing information on Mission-sponsored training
                 courses—including identifying the applicable USAID missions,
                 the types of training purchased, the cost of the courses, and the
                 vendors used—for dissemination to other missions considering
                 similar training purchases.



Management       In response to our draft report, USAID management concurred
Comments and     with each of the three audit recommendations included in the
                 report. Specifically, in response to Recommendation No. 1,
Our Evaluation   USAID management agreed to repeat its request for funding to
                 implement the training database in this year's fiscal year
                 2003/fiscal year 2004 Bureau Budget Submission and in
                 subsequent annual submissions if necessary. It is estimated that
                 implementation will take nine to fifteen months following funds
                 allocation.

                 In response to Recommendation Nos. 2 and 3, USAID
                 management agreed to develop the recommended procedures
                 regarding Mission-sponsored training which would be
                 implemented in conjunction with the training database covered
                 under Recommendation No. 1. The new training database will be
                 a web-based system and facilitate direct electronic entry of
                 mission-sponsored training information.

                 As a result of USAID management's comments, included in their
                 entirety as Appendix II, we consider a management decision to
                 have been made with regard to each of the three recommendations.




                                                                               8
                                                                               Appendix I

Scope and     Scope
Methodology
              The Office of Inspector General's Performance Audits Division in
              Washington, D.C conducted an audit to determine if USAID implemented
              measures to train and develop employees to meet its needs. The audit was
              conducted in accordance with generally accepted government auditing
              standards. Audit fieldwork was conducted between January and July 2001
              in USAID’s Washington, D.C. office. The scope of this audit covered
              training of employees during fiscal years 1999 and 2000.

              The audit included an assessment of management controls over the training
              function—particularly the maintenance of training records for USAID
              employees. An earlier report and testimonies related to training, prepared
              by the General Accounting Office, were considered during the audit. In
              addition, the report and recommendations of a USAID Workforce Planning
              Task Force were considered. The audit did not assess the quality of
              individual training courses. In addition, the audit did not include any
              coverage of USAID's foreign language training program as that will be
              covered in a future OIG audit.

              Methodology

              In order to gain an understanding of USAID's training program as it relates
              to the audit objective, we primarily held numerous discussions with officials
              in the Learning Support Division of USAID's Office of Human Resources
              and reviewed an extensive range of material concerning the program. We
              divided the audit coverage into five sections including:

              1. Determining whether USAID has developed a vision and how its staff
                 training and development strategy and policies support achievement of
                 this vision;

              2. Determining whether USAID has identified the knowledge, skills,
                 abilities and behaviors employees need to support USAID’s vision and
                 through review of training records determining whether it has identified
                 the extent to which USAID employees already possess these
                 competencies;

              3. Determining whether USAID has designed training and development
                 activities to meet any identified gaps in these competencies and to meet
                 future staffing needs;




                                                                                      9
4. Reviewing training records to determine in part whether USAID has
   adequately determined the level of resources required to fill training gaps
   for existing employees as well as the resources needed in future years for
   new employees; and

5. Comparing USAID's training requirements and level of training
   expenditures with other Federal agencies that are similar to USAID.




                                                                        10
                                                               Appendix II

Management
Comments



                                                              Jun 21, 2002

             MEMORANDUM

             TO:          IG/A/PA, Director, Dianne L. Rawl

             FROM:        M/HR/OD, Rose Marie Depp /s/

             SUBJECT:     Audit   of   USAID’s  Staff   Training  and
                          Development Activities (Report No 9-000-02-
                          xxxP)

                 This memorandum is in response to the subject draft
             audit report. In brief, we concur in the three
             recommendations with the understanding that the timeline
             for implementation is budget driven, subject to
             operating expense funds availability in FY 03 or FY 04.

             IG Recommendation No.1: We recommend that M/HR/LS
             implement a database of training records for all USAID
             employees -- U.S. direct hires, foreign service
             nationals, and personal service contractors--to include
             a reconciliation of prior training database records and
             the various manual records to develop an accurate list
             of completed training for entry into the new database.

             HR Comments Regarding Recommendation No. 1: HR agrees
             that a comprehensive database of training records for
             all USAID employees is an important agency goal. In
             fact, funds to implement this database were requested in
             the Office’s FY 01 Bureau Budget Submission but were not
             forthcoming in FY 02 due to agency operating expense
             funds constraints. The request will be repeated in this
             year’s FY 03/FY 04 Bureau Budget Submission and
             subsequent annual submissions. However, given current
             funding constraints, it is possible that funds for the
             new database may not be allocated until FY 04. It is
             estimated that it will take nine to fifteen months to
             fully implement the new system following funds
             allocation.

             IG Recommendation No. 2: We recommend that M/HR/LS
             develop procedures for ensuring information on completed
             employee training at Mission-sponsored training courses
             conducted overseas are entered into the new training
             database system.



                                                                     11
HR Comments Regarding Recommendation No. 2:     M/HR/LS
agrees that it is important to develop the recommended
procedures to ensure Mission-sponsored training is
entered into the new training database system. Please
note that completion of Recommendation No. 2 is
contingent on implementation of Recommendation No. 1,
subject to the timeline and funds availability inherent
in that recommendation.

IG Recommendation No. 3:     We recommend that M/HR/LS
develop procedures for collecting and summarizing
information on Mission-sponsored training courses--
including identifying the applicable USAID missions,
the types of training purchased, the cost of the
courses, and the vendors used-- for dissemination to
other missions considering similar training purchases.

HR Comments Regarding Recommendation No. 3 HR agrees
that it is important to develop the recommended
procedures. As in the case of recommendation no.2,
implementation of recommendation no. 3 is tied to the
timeline and funds availability inherent in
implementation of recommendation no. 1. We anticipate
that the new training database (a web-based system)
will facilitate direct electronic entry of mission-
sponsored training. Although it is possible to
institute a new paper-based mission reporting
requirement in the absence of a new training database,
we believe it is more effective and efficient to
implement recommendation no. 3 concurrent with
recommendations no. 1 and 2.

    We appreciate the opportunity to comment on the
draft report.




                                                      12
